<html>
<title> - DEPARTMENT OF ENERGY OVERSIGHT: ENERGY INNOVATION HUBS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                    DEPARTMENT OF ENERGY OVERSIGHT: 
                         ENERGY INNOVATION HUBS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 17, 2015

                               __________

                           Serial No. 114-25

                               __________

 Printed for the use of the Committee on Science, Space, and Technology






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       


       
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-565 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL                    ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              ERIC SWALWELL, California
MO BROOKS, Alabama                   MARC A. VEASEY, Texas
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
STEVE KNIGHT, California             ED PERLMUTTER, Colorado
BARBARA COMSTOCK, Virginia           EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
LAMAR S. SMITH, Texas



















                            C O N T E N T S

                             June 17, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Alan Grayson, Ranking Minority 
  Member, Subcommittee on Energy, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     8
    Written Statement............................................     9

                               Witnesses:

Dr. Harry A. Atwater, Director, Joint Center for Artificial 
  Photosynthesis (JCAP)
    Oral Statement...............................................    11
    Written Statement............................................    14

Dr. Jess Gehin, Director, Consortium for Advanced Simulation of 
  Light Water Reactors (CASL)
    Oral Statement...............................................    21
    Written Statement............................................    23

Dr. George Crabtree, Director, Joint Center for Energy Storage 
  Research (JCESR)
    Oral Statement...............................................    43
    Written Statement............................................    45

Dr. Alex King, Director, Critical Materials Institute (CMI)
    Oral Statement...............................................    53
    Written Statement............................................    55

Discussion.......................................................    64

             Appendix I: Answers to Post-Hearing Questions

Dr. Alex King, Director, Critical Materials Institute (CMI)......    78

            Appendix II: Additional Material for the Record

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    84

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    86

 
                    DEPARTMENT OF ENERGY OVERSIGHT:
                         ENERGY INNOVATION HUBS

                              ----------                              


                        WEDNESDAY, JUNE 17, 2015

                  House of Representatives,
                             Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:37 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. Good morning, and welcome to today's Energy 
Subcommittee hearing on the Department of Energy's (DOE) Energy 
Innovation Hubs.
    This hearing will establish Congressional oversight over 
the four existing Hubs, examining the costs and benefits of the 
Department's approach to collaborative research and 
development.
    DOE Energy Innovation Hubs are designed to coordinate 
research efforts across the Department, encouraging cooperation 
between researchers in basic science, applied energy, and 
engineering, and bringing together researchers from the 
national labs, academia, and industry into teams focused on 
solving critical energy challenges. With appropriate goals, 
benchmarks, and oversight, this kind of collaborative research 
and development is just plain old common sense.
    Through the national labs, the federal government has the 
expertise to conduct basic and applied research, while the 
private sector has the ability and the motivation to move the 
next-generation energy technology into the marketplace. The 
Department funds the four Energy Innovation Hubs at 
approximately $90 million per year. The existing Hubs are 
focused on a number of energy challenges including extending 
the life of nuclear power reactors, developing better and more 
powerful batteries, creating new materials for advanced energy 
technology, and mimicking the ability that plants have to 
create fuels from sunlight.
    The Consortium for Advanced Simulation of Light Water 
Reactors, also known as CASL, brings together our best and 
brightest from industry, academia, and the labs to develop 
codes to model and simulate operations of the U.S. reactor 
fleet. These cutting-edge tools allow us to increase our return 
on investment from DOE's supercomputers within the Office of 
Science's Advanced Scientific Computing Research program--the 
subject of a hearing we held in the Energy Subcommittee earlier 
this year.
    One critical application of CASL's virtual environment for 
reactor applications, known as VERA for short, is to enable the 
nuclear industry and regulators to predict the performance of 
reactor components for license renewals by the Nuclear 
Regulatory Commission (NRC). I'd like everyone to take note of 
the slide on the screen, which shows what is at stake--it's 
called The Clock is Ticking--shows what is at stake for the 
nation's base load electricity from nuclear power if the 
operating fleet is unable to secure license renewals to 60 
years and 80 years of operating life, respectively, and it 
shows it there on either one of our slides. These NRC license 
renewals are an important issue for the reliability of our 
nation's electricity and for my district on The Texas Gulf 
Coast.
    The South Texas Project, currently operating near my 
district which I used to represent, by the way, as you 
gentlemen know, provides reliable, zero-emissions electricity 
to the State of Texas, and good-paying jobs for my 
constituents. It's pretty clear from this graph just how 
important these licenses are to maintaining reliable, 
affordable power across the country. I know that Dr. Gehin has 
provided a similar figure in his prepared testimony, so I look 
forward to discussing this important issue today.
    The research and development underway in the CASL Hub is 
just one example of the benefits from this collaborative 
research approach. The technical expertise and scientific 
facilities in our national labs can provide tremendous impact 
on the private sector through appropriate partnerships.
    However, while the current DOE Hubs program pursues worthy 
research goals, not all collaborative research is a guaranteed 
success. In the first round of Hubs in the program, DOE 
established a Hub focused on building efficiency. But due to 
cost, poor performance, and a lack of clear goals, this Hub was 
dissolved.
    Establishing a new Hub, center, or project is not the 
answer to every problem, and new proposals must be 
appropriately justified to Congress and shown to meet the 
research and development goals for the lead DOE office. Any 
authorization of new or continuing Hubs proposed by DOE must 
also include the ability to efficiently close down projects 
that are not achieving clear measures of success.
    I want to thank our witnesses today for testifying on their 
valuable research and the DOE Energy Innovation Hub program. I 
look forward to a discussion about Federal Government's role in 
leading collaborative research and development, and how to 
leverage limited taxpayer dollars for the greatest economic 
impact and scientific achievement.
    [The prepared statement of Chairman Weber follows:]

              Prepared Statement of Subcommittee on Energy
                        Chairman Randy K. Weber

    Good morning and welcome to today's Energy Subcommittee hearing on 
the Department of Energy's (DOE) Energy Innovation Hubs. This hearing 
will establish Congressional oversight over the four existing Energy 
Innovation Hubs, examining the costs and benefits of the Department's 
approach to collaborative research and development.
    DOE Energy Innovation Hubs are designed to coordinate research 
efforts across the Department, encouraging cooperation between 
researchers in basic science, applied energy, and engineering, and 
bring together researchers from the national labs, academia, and 
industry into teams focused on solving critical energy challenges.
    With appropriate goals, benchmarks, and oversight, this kind of 
collaborative research and development is just common sense. Through 
the national labs, the federal government has the expertise to conduct 
basic and applied research, while the private sector has the ability 
and motivation to move the next generation energy technology into the 
market place.
    The Department funds the four energy innovation hubs at 
approximately $90 million per year. The existing hubs are focused on a 
number of energy challenges--including extending the life of nuclear 
power reactors, developing better and more powerful batteries, creating 
new materials for advanced energy technology, and mimicking the ability 
that plants have to create fuels from sunlight.
    The Consortium for Advanced Simulation of Light Water Reactors, 
also known as ``CASL'' [Castle] brings together our best and brightest 
from industry, academia, and the labs to develop codes to model and 
simulate operations of the U.S. reactor fleet. These cutting edge tools 
allow us to increase our return on investment from DOE's supercomputers 
within the Office of Science's Advanced Scientific Computing Research 
program--the subject of a hearing we held in the Energy Subcommittee 
earlier this year.
    One critical application of CASL's virtual environment for reactor 
applications, known as ``VERA'' for short, is to enable the nuclear 
industry and regulators to predict the performance of reactor 
components for license renewals by the Nuclear Regulatory Commission.
    I'd like everyone to take note of the slide on the screen, which 
shows what is at stake for the nation's base load electricity from 
nuclear power if the operating fleet is unable to secure license 
renewals to 60 years and 80 years of operating life, respectively.[see 
slide]
    These NRC license renewals are an important issue for the 
reliability of our nation's electricity and for my district. The South 
Texas Project, currently operating near my district, provides reliable, 
zero-emission electricity to the state of Texas, and good-paying jobs 
to my constituents. It's pretty clear from this graph just how 
important these licenses are to maintaining reliable, affordable power 
across the country. I know that Dr. Gehin [JEAN] has provided a similar 
figure in his prepared testimony so I look forward to discussing this 
important issue today.
    The research and development underway in the CASL hub is just one 
example of the benefits from this collaborative research approach. The 
technical expertise and scientific facilities in our national labs can 
provide tremendous impact on the private sector through appropriate 
partnerships.
    However, while the current DOE hubs program pursues worthy research 
goals, not all collaborative research is a guaranteed success. In the 
first round of hubs in the program, DOE established a hub focused on 
building efficiency. But due to cost, poor performance, and a lack of 
clear goals, this hub was dissolved.
    Establishing a new hub, center, or project is not the answer to 
every problem, and new proposals must be appropriately justified to 
Congress and shown to meet the research and development goals for the 
lead DOE office. Any authorization of new or continuing hubs proposed 
by DOE must also include the ability to efficiently close down projects 
that are not achieving clear measures of success.
    I want to thank our witnesses today for testifying on their 
valuable research, and the DOE Energy Innovation hub program. I look 
forward to a discussion about federal government's role in leading 
collaborative research and development, and how to leverage limited 
taxpayer dollars for the greatest economic impact and scientific 
achievement.

    Chairman Weber. So, I'm going to recognize the Ranking 
Member, Mr. Grayson, for an opening statement. He's chomping at 
the bit.
    Mr. Grayson. Thank you, Chairman Weber, for holding this 
hearing, and thank you to our witnesses for joining us today.
    I am pleased to see that we have the Director of each 
Energy Innovation Hub here this morning. These Hubs seek to 
accelerate scientific discoveries that address critical energy 
issues, particularly barriers to advancing new energy 
technology.
    Today's hearing is well-timed. Two of the four existing 
Innovation Hubs are up for renewal this year, while the others 
are just beginning. The Energy Innovation Hub Program was 
established only five years ago and this hearing will provide 
Members an important opportunity to understand further what 
must be done to ensure the successes of existing, and future, 
Hubs.
    Unfortunately, Congress has yet to provide any authorizing 
legislation for the important work being performed at each of 
the Hubs. I hope that today's hearing will provide the insights 
needed to accomplish that goal. Toward that end, I have already 
introduced H.R. 1870, a bill that would establish merit-based 
rules governing the selection, scope, and composition of future 
Hubs. Further, the Committee hasaccepted the legislative 
language from that bill as an amendment to the America COMPETES 
Reauthorization Act, which was considered on the House Floor 
less than a month ago. I appreciate the Chairman and his 
staff's efforts to work together to ensure that this important 
provision was included in the final bill. I also want to thank 
Ranking Member Johnson for including it in the alternative 
COMPETES legislation, produced by the Minority, that was 
offered as a substitute amendment both in Committee and on the 
Floor.
    I am very excited about the possibility of our Committee 
finally producing authorizing legislation for Energy Innovation 
Hubs. There are some issues I look forward to learning about 
this morning, particularly issues regarding Hub management and 
length of operation. We need develop a plan for Hubs that reach 
the end of their second five-year contract. Presently, the 
Department is indicating that Hubs will conclude work after a 
maximum of ten years only. I support this guidance in principle 
because it fosters a sense of urgency within Hubs to define and 
achieve goals as expeditiously as possible.
    But what happens when a Hub has been extraordinarily 
successful? Maybe there should be some process through which, 
according to merit-based review, that Hub is permitted to 
continue pursuing promising research and maybe even profound 
new discoveries.
    The answers to these questions, and others, are what I'm 
looking forward to hearing from you all today. I also look 
forward to hearing each of your views as to how your own Hub 
works in the context of Department of Energy research 
activities and goals across the board. How, specifically, is 
the research you are performing contributing to the larger 
effort to solve our nation's pressing energy challenges and 
needs?
    Each of you is involved in exciting and innovative work. I 
look forward to hearing from you, and watching each of your 
Hubs as they progress. It's my hope that Congress can provide 
to you the resources that you need to accomplish your goals, 
and I look forward to working with you, Chairman Weber, toward 
that end.
    Thank you. I yield the balance of my time.
    [The prepared statement of Mr. Grayson follows:]

              Prepared Statement of Subcommittee on Energy
                  Minority Ranking Member Alan Grayson

    Thank you, Chairman Weber, for holding this hearing, and thank you 
to our witnesses for testifying today.
    I am pleased to see we have the Director from each Energy 
Innovation Hub here this morning. These Hubs seek to accelerate 
scientific discoveries that address critical energy issues--
particularly, barriers to advancing new energy technologies.
    Today's hearing is well-timed. Two of the four existing Energy 
Innovation Hubs are up for renewal this year, while the others are just 
beginning. The Energy Innovation Hub Program was established only five 
years ago, so this hearing will provide Members an important 
opportunity to further understand what must be done to ensure the 
successes of existing, and future, Hubs.
    Unfortunately, Congress has yet to provide authorizing legislation 
for the important work being performed at each Energy Innovation Hub. 
It is my hope that today's hearing will provide the insights needed to 
accomplish that goal. Toward that end, I have already introduced H.R. 
1870--a bill that would establish merit-based rules governing the 
selection, scope, and composition of future Hubs. Further, the 
committee accepted the legislative language from that bill as an 
amendment to the America COMPETES Reauthorization Act, which was 
considered on the House floor less than a month ago. I appreciate the 
Chairman and his staff's efforts to work with me and my staff to ensure 
that this important provision was included in the final bill. I also 
thank Ranking Member Johnson for including it in the alternative 
COMPETES legislation, produced by the minority, that was offered as a 
substitute amendment--both in committee and on the floor.
    While I am very excited about the possibility of our committee 
finally producing authorizing legislation for Energy Innovation Hubs, 
there are some issues I look forward to learning more about this 
morning. Particularly, issues regarding Hub management and length-of 
operation.
    It is my belief that we must develop a plan for Hubs that reach the 
end of their second five-year contract. Presently, the Department is 
indicating that Hubs will conclude work after a maximum of ten years. I 
support this guidance in principle, because it fosters a sense of 
urgency within Hubs to define and achieve goals as expeditiously as 
possible. But what happens when a Hub has been extraordinarily 
successful? Shouldn't there be some process through which, according to 
a merit-based review system, that Hub is permitted to continue pursuing 
promising research?
    Furthermore, how can the Department best make sure that the utility 
of a Hub has been exhausted, and that it is not on the precipice of 
profound new discoveries?
    The answers to these questions, and others, are what I look forward 
to learning today. I also look forward to hearing each of your views as 
to how you view your own Hub in the context of larger Department of 
Energy research activities and goals. How, specifically, is the 
research you are performing contributing to the larger effort to solve 
some of our nation's most pressing energy challenges?
    Each of you is involved in exciting and innovative work. I look 
forward to hearing from you, and watching each of your Hubs as they 
progress. It is my hope that this Congress can provide the resources 
you need to accomplish your goals, and I look forward to working with 
you, Chairman Weber, toward that end.
    Thank you. I yield the balance of my time.

    Chairman Weber. I thank the gentleman.
    Let me introduce our witnesses. Our first witness today is 
Dr. Harry Atwater, Director of the Joint Center for Artificial 
Photosynthesis, or JCAP. In addition to his position at JCAP, 
Dr. Atwater serves as the Howard Hughes Professor of Applied 
Physics and Material Science at the California Institute of 
Technology. He specializes in photovoltaics and solar energy as 
well as plasmonics and optical materials. Dr. Atwater received 
his bachelor's degree, master's degree, and Ph.D. in electrical 
engineering from the Massachusetts Institute of Technology.
    Our next witness--and welcome, by the way, Dr. Atwater.
    Our next witness is Dr. Jess Gehin, Director of the 
Consortium for Advanced Simulation of Light Water Reactors, or 
CASL. Dr. Gehin has been with the Oak Ridge National Laboratory 
for over 20 years. Prior to his current position, Dr. Gehin was 
a senior R&D staff member performing research primarily in the 
area of nuclear reactor physics. Dr. Gehin received his 
bachelor's degree in nuclear engineering from Kansas State 
University, and his master's degree and Ph.D. in nuclear 
engineering from MIT. And by the way, welcome, Dr. Gehin.
    And I will now yield to the gentleman from Illinois, Mr. 
Lipinski, to introduce our next witness.
    Mr. Lipinski. Thank you, Chairman Weber, and thank you, 
Chairman and Ranking Member Grayson, for holding this hearing.
    It's my honor to introduce Dr. George Crabtree, who's the 
Director of Joint Center for Energy Storage Research, or JCESR, 
at Argonne National Lab, which is in my district. He's also a 
distinguished Professor of Physics, Electrical and Mechanical 
Engineering at the University of Illinois at Chicago, serving 
as a bridge between Argonne and academia. He has won numerous 
awards for his research including the Kammerlingh Onnes Prize 
for his work on vortices and high-temperature superconductors. 
This prestigious prize is awarded once every three years. Dr. 
Crabtree is the second recipient. He has won the U.S. 
Department of Energy's Award for Outstanding Scientific 
Accomplishment in Solid State Physics four times, which is a 
very notable accomplishment.
    Dr. Crabtree has served as Director of the Material Science 
Division at Argonne. He has published more than 400 papers in 
leading scientific journals, has collected over 16,000 career 
citations, has given over 100 invited talks at national and 
international scientific conferences. His research interests 
include next-generation battery materials, sustainable energy, 
energy policy, material science, nanoscale superconductors and 
magnets, and highly correlated electrons and medals. Dr. 
Crabtree co-chaired the Under Secretary of Energy's Assessment 
of DOE's Applied Energy programs.
    I want to thank Dr. Crabtree for joining us today and I 
look forward to your testimony.
    Chairman Weber. I thank the gentleman. Welcome, Dr. 
Crabtree. Did he say 16,000 citations? I don't know how you can 
afford that. Every time I get a citation, my insurance goes up. 
Yours has got to be astronomical.
    Our final witness is Dr. Alex King, Director of the 
Critical Minerals Institute (CMI). Before joining CMI, Dr. King 
served as the Director of the Ames Laboratory. Dr. King 
received his bachelor's degree in physical metallurgy from the 
University of Sheffield and his Ph.D. in metallurgy and science 
materials from the University of Oxford. Welcome, Dr. King.
    At this time I'm going to now recognize Dr. Atwater for 
five minutes to present his testimony. Dr. Atwater.

          TESTIMONY OF DR. HARRY A. ATWATER, DIRECTOR,

       JOINT CENTER FOR ARTIFICIAL PHOTOSYNTHESIS (JCAP)

    Dr. Atwater. Okay. Mr. Chairman, distinguished Members, 
ladies and gentlemen. It's my pleasure to be here today to tell 
you about the work, the mission and the progress the Joint 
Center for Artificial Photosynthesis.
    So I think it's fair to say that having a source of 
renewable fuels would be a great source of energy security, 
economic well-being, and environmental protection for the 
United States, and JCAP, which is a partnership that's led by 
Cal Tech, but also with major partnerships with the national 
labs, Lawrence Berkeley National Labs and Stanford Linear 
Accelerator Lab, as well as the University of California, is 
focusing on building the scientific foundation for renewable 
synthesis of transportation fuels directly from sunlight, water 
and carbon dioxide using a process called artificial 
photosynthesis, or otherwise known as generating fuels from 
sunlight.
    So most people are familiar with the idea of generating 
electricity from sunlight with solar panels that you might put 
on your roof, so what JCAP is working on is the science behind 
taking those charge carriers and directly converting those 
charge carriers that come out of your solar panel into chemical 
fuels, examples of which are hydrogen, which is generated by 
splitting water into hydrogen and oxygen, and generating 
renewable carbon-based fuels by reduction of carbon dioxide. 
And JCAP was established in 2010, and during its first five 
years had a primary emphasis on hydrogen production, and its 
missionary objective, a sort of overarching missionary 
objective during that time was to develop a robust solar fuel 
generator for hydrogen generation that operates 10 times more 
efficiently than natural systems like plants and crops. And I'm 
happy to say that JCAP has been able to meet that objective of 
developing a robust solar fuels generator, and more 
importantly, really developing the concept of what a solar 
fuels generator is. That's been an important contribution to 
the scientific field and to the advancement of technology.
    In its next five years in renewal, JCAP is going to focus 
on the--as a main objective, reduction of CO<INF>2</INF> and 
converting reduction of CO<INF>2</INF> to transportation fuels, 
direct transportation fuels, and this is really also in 
addition to a strategic objective for making fuels, it is 
really a dramatic scientific grand challenge, the reduction of 
CO<INF>2</INF> selectively, producing exactly one product and 
not a bunch of byproducts is a true scientific grand challenge.
    So to date, we have, as I indicated, been able to develop 
solar fuels generators that operate 10 times more efficiently 
than plants, and that has really set the stage for a follow-on 
generation of applied R&D that can develop the scalable 
generators, and as you may know, there is no existing solar 
fuels industry. While there's a solar panel industry, there is 
no solar fuels industry, so it is these innovations that will 
really set the stage for U.S. industry, a new U.S. industry in 
this area.
    And in the course of its work in generating solar fuels 
generators, JCAP also discovered new catalysts for water 
oxidation and reduction, importantly, a method to protect 
semiconductors against corrosion so they can be long-lasting 
and robust in their operation.
    In addition to these scientific discoveries, JCAP 
established a number of important facilities including two 
state-of-the-art labs, one at California Institute of 
Technology and once at Lawrence Berkeley Laboratory that are 
purpose-built for solar fuels research. It established new 
methods for rapid high-throughput screening of materials so we 
can do experiments that used to take years in matters of weeks. 
We developed the first facility for so-called benchmarking, or 
developing standard test conditions for evaluating catalysts so 
that we can understand how different solar fuels materials 
operator and perform. We developed new methods for 
characterization of solar fuels materials using advanced X-ray 
light source techniques at the Advanced Light Source at 
Lawrence Berkeley labs and Stanford Linear Accelerator Lab.
    Also, to set the stage for a new solar fuels industry, JCAP 
has been very active in developing invention disclosures, a 
total of 36 invention disclosures, and 26 patent applications, 
which are available for licensing to industry, and has an 
output of scientific results, 200 papers, 60 percent of which 
are in high-impact journals and numerous key note and invited 
presentations by research scientists at JCAP.
    And so just to highlight some of the things that, you know, 
why is it that a Hub is an appropriate mechanism to carry on 
and accelerate this kind of research, JCAP has been able to 
leverage the integrated Hub concept to make significant 
advances, one of which I cited earlier, which is the notion 
that we could accelerate the development of catalyst materials 
on a time scale that normally takes years in the sort of 
conventional pace of progress in science, and carry out that in 
a matter of weeks, and so as an example, in 2013, JCAP 
developed by a collaboration between two of the JCAP projects, 
the high throughput experiment project and the heterogeneous 
catalysis project, new catalyst materials composed of four 
elements, and there are many, many ways you can combine four 
elements together in different compositions, so a very large 
number of samples were made and rapidly screened using high-
throughput combinatorial synthesis techniques that allowed us 
to very rapidly identify candidates and promising candidates 
were scaled up and tested at the laboratory level, really 
accelerating that pace of progress.
    Another example is the development of a cross-cutting what 
we call process materials and integration team, a group of 
applied and basic research scientists that came together from 
across JCAP to really understand how to put together and design 
and build very rapidly solar fuels generator prototypes so we 
could understand what works and what doesn't on a rapid time 
scale.
    So those are many of the key accomplishments, and so for 
the future, JCAP is going to focus on the grand challenge of--
scientific grand challenge of reduction of carbon dioxide in 
generation of liquid fuels directly from the products, reduced 
products. This is an area that takes JCAP, which has a 
translational mission, sort of more upstream in the basic 
research end, because in the area of carbon dioxide reduction, 
there are many more scientific challenges and unanswered 
questions than I think currently exist for the case of hydrogen 
production. And so it's the opportunity to really unlock the 
mechanisms and the scientific discoveries that could 
selectively reduce CO<INF>2</INF> to fuel products that could 
generate a new generation of generators for liquid fuels, and 
that's going to be our missionary objective as a scientific 
grand challenge and setting the stage for a new type of solar 
fuel generator.
    [The prepared statement of Dr. Atwater follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
   
   
    Chairman Weber. Thank you, Dr. Atwater.
    Dr. Gehin.

             TESTIMONY OF DR. JESS GEHIN, DIRECTOR,

               CONSORTIUM FOR ADVANCED SIMULATION

                 OF LIGHT WATER REACTORS (CASL)

    Dr. Gehin. Thank you very much, Chairman Weber, Ranking 
Member Grayson, and Members of the Subcommittee. It's my honor 
to be here to provide this testimony on the Energy Innovation 
Hub integrated research approach.
    CASL was the first Hub established by the Department of 
Energy in July 2010. It's currently completing its first five-
year term. It consists of 10 core founding partner institutions 
from academia, national laboratories and industries led by Oak 
Ridge National Laboratory.
    Our focus is on innovations in nuclear commercial power 
generator, specifically the advanced modeling and simulation of 
nuclear reactors. CASL's vision is to predict with confidence 
the performance of nuclear reactors through comprehensive 
science-based modeling and simulation technology that is 
deployed and applied broadly throughout the nuclear energy 
industry to enhance safety, reliability and economics. CASL is 
capitalizing on advancements in computing and is helping retain 
and strengthen U.S. leadership in two key mission areas of 
high-performance computing and nuclear energy.
    CASL targets R&D in technical areas that have been selected 
as significant current industry challenges where modeling and 
simulation can provide meaningful advancements, particularly to 
help achieve increases in operating power, life extensions and 
higher fuel utilization. Many of the CASL developments are 
focused on key phenomena that limit power generation and so 
they can improve operations. Similarly, a significant benefit 
can be achieved through further life extensions by ensuring 
that reactor life-limiting components can meet their design 
requirements for longer operating periods beyond the current 
license renewals.
    CASL's integrated research model is based on establishing 
an organization with outstanding researchers with a clear and 
agile research plan. Let me point out a few of the key features 
of this integrated model: central integrated management 
decision making and program integration, strong science and 
engineering applications and design leadership, independent 
oversight and review by an external board of directors, science 
and industry councils for oversight, review and advice, an 
agile work process based on 6-month planning execution periods.
    In order to achieve our research goals, CSL is developing a 
virtual reactor that we call VERA, which stands for the virtual 
environment for reactor applications. Our key research 
accomplishments in the development of VERA include creating a 
comprehensive Hub environment that supports a large team of 
researchers working on developing, testing and deploying VERA, 
the virtual reactor; developing computational methods and 
computer codes for all key physics needed to model reactor 
operation; applying VERA to several--to simulate several 
nuclear power plants including the Watts Bar nuclear plant near 
Oak Ridge, which is designed by Westinghouse and operated by 
TVA, both partners in CASL; and coupling of physics software 
components and models with initial applications providing 
integrated simulation capabilities not previously available.
    The key metric of the success of CASL's modeling and 
simulation capabilities is deployment to nuclear industry where 
these tools can be used. In order to achieve this, we have 
strong engagement with our industry partners and a broad 
connection with private industry through the integration of 
more than 50 additional contributing partners. CASL also relies 
an industry-led industry council with over 25 members from the 
broader nuclear energy and modeling simulation industries.
    VERA has already been deployed in industry engineering 
environments through CASL test stands. This includes, for 
example, the use of VERA at Westinghouse for simulating the AP-
1000 reactor to confirm their own engineering calculations. In 
CASL's second five-year term, VERA will be expanded beyond 
pressurized water reactors to support boiling water reactors, 
which represent the remainder of our current operating fleet. 
We will also consider future light water reactor designs 
including small modular reactors.
    In conclusion, Energy Innovation Hubs represent an 
effective research model that enables CASL to conduct basic and 
applied research for critical energy application. Through the 
Hub model, CASL has tapped into DOE advanced computing 
strengths and nuclear energy research capabilities. We have 
taken advantage of the best and brightest university 
researchers and we have integrated decades of industry 
experience and expertise. This highly integrated, focused R&D 
partnership has demonstrated accomplishments at a rapid pace, 
notably including successful deployments to several industry 
end users. As the first Energy Innovation Hub, CASL has clearly 
demonstrated that this research model can be a very effective 
method to deliver targeted research and rapid solutions to 
address complex issues.
    Thank you very much.
    [The prepared statement of Dr. Gehin follows:]
   
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Chairman Weber. Thank you, Doctor.
    Dr. Crabtree.

          TESTIMONY OF DR. GEORGE CRABTREE, DIRECTOR,

        JOINT CENTER FOR ENERGY STORAGE RESEARCH (JCESR)

    Mr. Crabtree. Thank you, Chairman Weber and Ranking Member 
Grayson and Members of the Committee for this opportunity to 
testify. I will be talking about the Joint Center for Energy 
Store Research, otherwise known as JCESR, which addresses two 
compelling challenges: creating the next generation of high-
performance, inexpensive electricity storage to transform 
transportation through the widespread penetration of electric 
cars, and to transform the electricity grid through widespread 
penetration of clean and sustainable wind and solar energy. 
JCESR concentrates exclusively on next-generation electricity 
storage beyond the reach of today's lithium ion technology.
    Transportation and the grid account for 2/3 of all the 
energy used in the United States. Transforming them with high-
performance, inexpensive storage not only modernizes our energy 
system but also grows the economy, creates jobs and promotes 
U.S. innovation in the global marketplace.
    JCSER brings a new paradigm to battery R&D, integrating 
four functions into a single highly interactive organization, 
and those four functions are discovery science, battery design, 
research prototyping, and manufacturer collaboration. It is 
close interaction spanning across these four functions that 
accelerates the pace of discovery and innovation and shortens 
the time from conceptualization to commercialization. So 
JCESR's new paradigm is a model not only for battery R&D but 
also for other critical national energy challenges.
    Using our new paradigm, JCESR intends to create two 
additional outcomes or legacies: a library of fundamental 
science of energy storage, applying the remarkable advances of 
nanoscience of the last 15 years to the materials and phenomena 
of energy storage at atomic and molecular levels, and the 
second outcome, using this new understanding to develop two 
prototype batteries, one for transportation, one for the grid, 
that when scaled to manufacturing have five times the energy 
density and one-fifth the cost of today's commercial lithium 
ion batteries. Although the two batteries may look very 
different, they will be based on the same library of 
fundamental science.
    JCESR has already made substantial progress toward its 
goals. Soon after launch, we established our new paradigm 
spanning 150 researchers at 14 partner institutions. We began 
building the personal relationships that enable intense and 
effective communication, and we put in place the strategic 
objectives and the daily meetings that drive our program. In 
its first year, JCESR established three distinguishing tools so 
materials genome approaches for crystalline electrodes and 
liquid electrolytes that simulate tens of thousands of 
materials on the computer to find the most promising ones 
before they are ever made in the laboratory.
    We also put together a unique electrochemical discovery lab 
to synthesize and explore these materials with state-of-the-art 
tools and the third distinguishing tool is techno-economic 
modeling to simulate the performance and cost of complete 
battery systems on the computer before they're prototyped.
    So JCESR used these tools to make foundational progress in 
all four of its functional areas. We identified four promising 
directions for transportation and grid prototypes. We used our 
tools to converge these four battery prototypes so techno-
economic modeling revealed the ultimate performance of each of 
the four prototypes and in an inverse process provided 
performance and cost thresholds for the materials that would 
make up the components of those batteries. The materials 
genomes found promising materials to meet these thresholds and 
the synthesis and prototyping teams began to build partial and 
complete prototypes to test the compatibility of the materials 
as complete battery systems. So we've met extensively with the 
private sector to discuss the size and performance of JCESR's 
prototypes that would be required to translate them to 
commercialization.
    In our 2-1/2 years of operator, we've learned the critical 
importance of continuous improvement of our new paradigm. We 
worked closely with our 14 partners, our 150 researchers and 
our sponsor, the Office of Basic Energy Sciences in DOE, to 
refine our management practices, to refine our strategic 
directions, and to balance our exploratory divergent research 
to identify promising solutions with focused convergent 
research to implement and complete the selected solutions and 
prototypes rapidly.
    During this time, we've terminated research on one 
candidate prototype--that would be lithium oxygen batteries--
and initiated research on other promising opportunities 
including metal anodes for lithium and magnesium, and membranes 
for flow batteries. Nimble response to management and strategic 
challenges and opportunities as they arise is essential for 
completing our mission in a timely manner.
    So thank you again for the opportunity to testify and I'm 
happy to answer questions later on.
    [The prepared statement of Mr. Crabtree follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Chairman Weber. Thank you, Dr. Crabtree.
    Dr. King.

             TESTIMONY OF DR. ALEX KING, DIRECTOR,

               CRITICAL MATERIALS INSTITUTE (CMI)

    Mr. King. Thank you, Chairman Weber, Ranking Member 
Grayson, Members of the Subcommittee. Thank you for the 
opportunity to testify at today's hearing on innovation Hubs.
    I'm Director of the Critical Materials Institute, which is 
led by the Ames Lab in Ames, Iowa, the U.S. Department of 
Energy Office of Science National Lab operated by Iowa State 
University. CMI's team includes more than 300 researchers and 
support staff across six corporations, seven universities and 
four national labs.
    CMI exists primarily to mitigate the challenges posed to 
the manufacturing sector by materials that provide essential 
functions or capabilities but are subject to supply risks. The 
Hub focuses on materials used in clean energy technologies, but 
many of these have broader uses, notably in the area of 
defense. Prominent among the Hub's research targets are the 
rare earth elements, which are used in magnets, lighting and 
displays, and lithium, which is used in today's rechargeable 
batteries.
    CMI follows the critical materials strategic developed by 
the U.S. Department of Energy, addressing opportunities in 
three areas: One, diversification of supply; two, development 
of substitute materials; and three, improving the efficiency of 
materials used in reducing waste in our access of the currently 
available materials.
    Within its first five years, this Hub will develop and have 
adopted by industry at least one technology in each of these 
three areas. In its first two years of operation--we just 
celebrated our second anniversary--CMI has developed 34 
inventions with significant potential for impact, has made four 
patent applications. It is very close to having one replacement 
material adopted by an industrial and is within a year or two 
of a second. Materials development of this kind typically takes 
20 years, and we've succeeded in two. Maybe I'll explain how 
later. CMI-developed technology for solvent extraction is being 
considered for licensing by two mining companies as we speak.
    These results have strong potential for providing financial 
returns on the investments made by the U.S. taxpayer. The Hub 
has earned an international reputation and has been described 
as the gold standard in its field. Several other countries are 
modeling their own efforts after CMI.
    How does this integrated research model advance the goals 
of the Office of Science and Applied Programs at DOE? Let me 
offer an example. In pursuit of new magnet models, we combine, 
as other Hubs do, computer simulations, experimental 
exploration of candidate alloys, rapid analysis and testing. 
These methods are all founded upon tools previously developed 
among CMI's partners largely with DOE Office of Science 
Support, but we have advanced them and made them specific to 
our own purposes. So the Hub has in its first two years 
developed the first successful theory and computer models for 
predicting what is called magneto-crystalline anisotropy--maybe 
I'll explain if you ask--for proposed new materials. This is 
something that hadn't been possible before. It's a contribution 
from fundamental condensed matter physics in support of 
developing new magnetic materials.
    We've developed a tool based on additive manufacturing 
technologies for the rapid production of target magnet 
compositions, allowing us to produce arrays of materials that 
can then be tested. We've built new capabilities actually in 
collaboration with JCAP for rapid analysis of materials that 
take advantage of our additive manufacturing tool, and we have 
added high-throughput magnet testing capabilities. All of these 
capabilities work together to produce new materials, make them, 
test them, and meet the needs of the Hub. They are also 
enhancing the capabilities of other Office of Science and EERE 
programs, bringing them together. We have created a range of 
candidate materials for new high-performance magnets.
    Effectively, what we have done is to orchestrate diverse 
scientific efforts and enhance them so that we're able to meet 
technological needs of the day in short order. We're able--
we've demonstrated the ability by doing that to go from zero to 
having new materials invented in two years, a process that 
typically takes up to 20.
    How does the private sector interact with CMI? We are very 
flexible. We seek--we have always sought to be flexible and 
responsive to industry needs. We find that our research goes 
faster when we speak to industry because speaking first we 
listen. We foster increasingly intensive collaborations as 
companies move from informal interactions to membership in our 
affiliate program to full engagement as research team members. 
Some companies have also expressed interest in engaging CMI for 
proprietary pre-commercial research, and we are considering 
that opportunity.
    Technologies developed by the Hub using its federal funds 
must be pre-competitive, must have high potential for impact on 
the supply chain, must be cost-effective, timely and have 
potential for adoption by U.S.-based companies.
    Thank you.
    [The prepared statement of Mr. King follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Chairman Weber. Thank you, Dr. King. I thank the witnesses 
for your testimony. I now recognize myself for questions for 
five minutes.
    Dr. Gehin, as I noted in my opening statement, CASL's 
support for NRC license renewals is an issue of particular 
importance to my district and my adjoining Matagorda County, 
Blake Farenthold's district. The South Texas Project Units 1 
and 2 are currently under review by the NRC to operate for an 
additional 20 years, which means 20 more years of safe, 
reliable, and, I might add, zero-emission power for Texans. Can 
you explain to us generally how CASL's simulation capabilities 
uniquely allow the use of supercomputers to model the integrity 
of a reactor pressure vessel and other components and why this 
is important for license extensions for the reactor fleet to 
operate up to 80 years. Doctor?
    Dr. Gehin. Thank you very much for the question. So in a 
life extension of a reactor, you need to consider the aging of 
the materials, and so this is being done for the current 20-
year life extensions. What we're interested in is informing the 
next 20-year extension which, as you have noted, 60 to 80 
years. So it will not impact the current--CASL will not impact 
the current license renewal, which is already in process.
    When you look at the extension to 60 to 80 years, there are 
critical components in the reactor that can't easily be 
replaced. One of these is the reactor vessel. There's others 
that are concrete and other materials.
    Chairman Weber. Let me ask you real quick right in here 
because I read that in your comments. Why is it that the 
reactor core cannot be replaced? Is it just cost prohibitive?
    Dr. Gehin. It's cost prohibitive. It's very--it would be 
very invasive to extract the vessel, or the reactor vessel, 
which is right in the center of the reactor. So it's not deemed 
as being cost-effective to replace.
    Chairman Weber. Okay. That's strictly based on cost 
considerations?
    Dr. Gehin. Yes.
    Chairman Weber. Okay. Thank you. Go ahead.
    Dr. Gehin. And so--but the integrity of that vessel is 
really very important, of course, for safety and operation 
reasons so it's important to look at its integrity, and which 
was done extensively, and renewals. What we're doing in CASL by 
using our supercomputing capabilities is be able to do a very 
precise calculation of the neutron interactions on that vessel. 
So the vessel surrounds the fuel and so neutrons, you know, 
move around in the core, hit the vessel, and affect its 
material properties. So by being able to better follow the 
operation of the reactor over its lifetime and calculate the 
neutron interactions in a better way, three-dimension, higher 
fidelity, you can combine that improved material models that 
are being developed to understand the condition of that vessel 
and ensure that it can be extended another 20 years.
    Chairman Weber. We were talking earlier when I came out to 
introduce myself to you all about criticality.
    Dr. Gehin. Yes.
    Chairman Weber. How long does it take to reach criticality, 
for example?
    Dr. Gehin. You know, they load the fuel, and it might take, 
you know, a day or two to become critical and then there's an 
escalation of power over a couple days, and then the intention 
is to operate at full power. Critical means operating exactly 
steady state power. That's where you want a reactor to operate 
for 18 months. That's the goal. Then you shut down for 
refueling.
    Chairman Weber. So once you reach criticality, and you've 
got--forgive me, this is very technical--neutrons. Explain that 
process.
    Dr. Gehin. So the goal in achieving criticality or steady 
state operation is to have a self-sustaining neutron chain 
reaction, and so you get neutrons that are produced by fission 
and you have those in balance such that they cause additional 
fissions that create more neutrons so you maintain a steady 
state.
    Chairman Weber. Right, and of course, I'm a layman in this, 
but it just seems like once you reach criticality, you know the 
effect on the reactor core.
    Dr. Gehin. Well, you know--so when you reach criticality, 
you are impacting the fuel. You're depleting the fuel. You're 
irradiating the vessel, irradiating the components, and most 
importantly, generating power, which is the whole reason you're 
doing this. So while you're doing that, you do not know the 
full three-dimensional distribution of fluids on the vessel. 
You make measurements in selected locations to confirm the 
material behaviors is as expected. But what we can add with 
CASL is a lot more detail on what can actually be measured.
    Chairman Weber. Are you measuring inside and outside the 
vessel?
    Dr. Gehin. Yeah. They insert what's called coupons. They're 
metal samples that they can then take out of the reactor and 
interrogate. So one thing is really important. Simulation alone 
can't provide this information, simulation combined with this 
type of data and experiments that can give the complete 
picture.
    Chairman Weber. Are you able to anticipate new materials? I 
know we talked about graphite being used, heavy water, light 
water.
    Dr. Gehin. Yeah.
    Chairman Weber. Are you able to extrapolate that to what 
those effects would be on the reactor core itself?
    Dr. Gehin. Yes, and the tools we're developing are based on 
more fundamental principles than typical design tools so 
they'll accommodate different material--consideration of 
different materials. It's particularly valuable in scoping 
calculations, what if we did this, how would it perform, so you 
could down-select the most promising concepts that you could 
then take forward. You know, this is looking at fuel designs 
and how you operate the reactor can give you a lot more 
additional information.
    Chairman Weber. Okay. Forgive me, I'm way over my time, but 
I did have a question for Dr. Crabtree. I think you're working 
on the batteries. All I want to know is, can you make it where 
my iPhone battery doesn't run down while I'm watching the 
grandkids on videos?
    Mr. Crabtree. Great question, and I have the same 
challenge. I wish my iPhone lasted twice as long.
    Chairman Weber. Thank you very much, and I'll now yield to 
the Ranking Member.
    Mr. Grayson. Thank you. I have some questions for Dr. 
Atwater. I'm going to try to understand better how the research 
that you're doing fits into the bigger picture of energy 
production and storage.
    What you described as an effort to create solar fuels as 
opposed to the more typical effort to create electricity from 
solar power. Is that correct?
    Dr. Atwater. That's right, yeah.
    Mr. Grayson. All right. So is that similar, would you 
agree, to something like ethanol production, or is that 
different?
    Dr. Atwater. Well, so ethanol is an example of a chemical 
fuel. It's a liquid fuel that's suitable as a liquid fuel, and 
that is indeed what--ethanol is normally produced by, for 
example, fermentation of feedstocks from crops and plants and 
so forth, and that's a process that is established but it's 
limited by the efficiency of natural photosynthesis. So what 
artificial photosynthesis or fuels from sunlight as the--in the 
research objectives at JCAP is focused on the same process of 
chemical fuel production but with a much higher efficiency. So 
the efficiency potential for fuel production rivals that of the 
efficiency potential for photovoltaic systems. For example, if 
you put solar panels on your rooftop, you can expect that the 
solar panels will operate with an efficiency for electricity 
production of something like 20 percent of the total sunlight 
falling on your rooftop. For example, natural photosynthesis is 
less than one percent efficient for most plants and 
photosynthetic organisms. So there's a big gap there. And so 
JCAP is working to develop processes that can make fuels very 
selectively. We want to make one fuel, say, ethanol or methanol 
or hydrogen, and not a bunch of byproducts. Nature does this, 
of course, very well. But nature's not particular efficient. 
And so to make an economical source of fuel generation that can 
generate and foster a new industry focused on efficiency, and 
like the nuclear Hub, I would mention we're focused on 
reliability because if you think about the return on investment 
for any solar panel that you would put on your roof, it has to 
last for a long time. It has to last for 20 or 30 years in 
order to get that return on investment. Similarly, we want to 
make devices that are robust and reliable and that last for a 
long time.
    Mr. Grayson. So are you trying to basically do what biology 
does through only chemical and physical means or are you trying 
to take biological processes and tweak them and improve them?
    Dr. Atwater. Yeah. In JCAP, we have a very sharply focused 
research program that's focused on chemical catalytic processes 
and physical processes for the charge generation. So we're 
using actually for the source of energy generation 
semiconductors very much like the semiconductors that are used 
in solar panels to generate electricity. But the charge 
carriers are then driven to chemical catalysts, not biological, 
so we're working on non-biological routes, and as I indicated, 
we've already been able to achieve efficiencies for hydrogen 
production that are of the order of ten percent and 10 times 
greater--more than ten times greater than that for natural 
photosynthetic processes.
    Mr. Grayson. So the fuel that you've created so far is 
hydrogen, not a traditional transportation fuel?
    Dr. Atwater. That's right.
    Mr. Grayson. Now you're going to try to branch out into 
something that you could actually put into a car----
    Dr. Atwater. That's right.
    Mr. Grayson. --these days like octane or ethanol or 
methanol or something.
    Dr. Atwater. That's right, exactly, so the grand challenge 
is under mild chemical conditions very much like the way a 
solar panel would operate, can we generate directly a chemical 
fuel without having to build another large plant to do the 
downstream distillation and refinement.
    Mr. Grayson. One of the more interesting things about solar 
power production is that there are arguments in favor of large-
scale production, arguments in favor of small-scale production. 
Are you finding any sort of economies of scale that would tilt 
you toward large-scale production for this purpose, or not?
    Dr. Atwater. So we have done--the best way to answer that 
is to look at the record of an industry, and we don't have an 
existing solar field industry. However, JCAP has done some 
studies of the scalability. So what would it look like and what 
would be the key drivers for improved efficiency and cost 
reduction if you were to build, say, a 1-gigawatt-scale plant. 
That's a very large-scale plant. For example, a conventional 
power reactor would be of the order of hundreds of megawatts to 
a gigawatt. And what you see is that the primary drivers of the 
cost and the economic return are the efficiency and the 
durability of the solar fuel generator itself. It's not the 
tanking and the piping and other infrastructure.
    So the preliminary analysis shows that, you know, the 
investments that we're making in the research on the technology 
advancement itself are key drivers. So to answer your question 
directly, it looks like there's not a big sensitivity to scale.
    Mr. Grayson. All right. Last question. Do you have any 
judgment yourself about the possibility or the prospect of 
actually taking biological processes that exist and tweaking 
them, improving them to the point where they can become 
commercially viable?
    Dr. Atwater. Yeah, that's a very interesting question. The 
wonderful thing about nature is that it's regenerative, you 
know, in our bodies and in plants and so forth, cells are 
regenerated, and the typical photosynthetic organisms only last 
for, you know, minutes to hours before they die and then nature 
has the benefit of regeneration. So we've really focused in our 
effort on non-biological routes because we want to make--
because we know that we want to make things that last for tens 
of years. So JCAP really is focused on chemical and physical 
processes, which we think, you know, demonstrated by, you know, 
the record of durability of conventional solar photovoltaic 
panels that have the prospect of being durable for a very long 
time without regeneration.
    Mr. Grayson. Thanks. I yield back.
    Chairman Weber. I thank the gentleman.
    I now recognize the gentleman from California. Dana, you're 
up.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    A couple of specific questions, and Mr. Gehin, is that how 
I pronounce it? Am I correct in that?
    Dr. Gehin. Close. Gehin.
    Mr. Rohrabacher. Okay. I didn't quite get that. A little 
louder?
    Dr. Gehin. Gehin.
    Mr. Rohrabacher. Gehin. Okay.
    Your focus on advanced simulation for light water reactors, 
we have a light water reactor in Orange County, and it's shut 
down now, and we have found all over the world where light 
water reactors have made things--have been put public--the 
public around those light water reactors in danger, and so now 
there is a danger associated with every energy source, but 
don't we have other potential sources of nuclear energy that 
are less dangerous that what light water reactors will be? And 
why are we stuck on light water reactors? I mean, I must have 
been briefed on three or four different alternatives to light 
water reactors that are safe and will not leave plutonium 
behind and can't melt down, whether they're pebble-based or 
thorium or high-temperature gas-cooled reactors. Why are we 
still putting money into light water reactors rather than going 
to a new generation of a different concept that wouldn't be 
dangerous?
    Dr. Gehin. Yeah, so that's a very good question. I think, 
you know, my response will be, we need to look at both. I mean, 
we have a large current fleet generating a lot of clean, low-
cost energy that the safety record is quite good on. And so 
CASL's goal is to improve upon that, so--and I think we're 
doing that as well.
    There are other--there are other advanced reactor concepts. 
DOE is doing research on these with expectations of deployment 
later on in this century. And so hopefully that will be a 
possibility. CASL's, though, focus is, we have the existing 
fleet of 99 reactors. We're going to be adding five more. Let's 
operate those the best that we can and get all the benefits 
that we can.
    Chairman Weber. Will the gentleman yield for just a second?
    Mr. Rohrabacher. I certainly will.
    Chairman Weber. I'll give you some extra time.
    In somebody's testimony, I read where the nuclear reactors 
we use on subs are safe because they're designed to shut down 
in the event of a military incident. Whose--was that yours, Dr. 
Gehin? Do you remember?
    Dr. Gehin. No, it wasn't me.
    Chairman Weber. Okay. What kind of reactors are those? Are 
they light water reactors?
    Dr. Gehin. Yeah, that's my understanding, although that's 
technology that the Navy protects very closely, but, you know, 
they put a lot of effort in the design of those reactors to 
ensure that they're safe.
    Chairman Weber. All right. Thank you. Reclaiming your time.
    Mr. Rohrabacher. All right. Thank you.
    What we're talking about is research that was done back in 
the 1940s and 1950s, and light water reactors are old 
technology. This is like trying to improve the steam engine. I 
mean, we spent a lot of money improving steam engines, and in 
fact, I believe light water reactors are based on steam 
engines.
    Mr. Chairman, I would suggest that focusing our limited 
research dollars on light water reactors is a terrible waste 
and misuse of limited dollars that we have here. At the very 
least if we are going to use nuclear energy, let's focus on 
those very promising technologies that we have not invested in 
yet rather than trying to perfect something that we've been 
basically researching for 40 and 50 years. I'm dismayed about 
this, and I've been talking to the Department of Energy about 
this for a number of years, and we just can't get them to 
invest. As I say, there's at least three or four alternatives 
that I know about, and I'm not a scientist. So with this, let 
me ask about batteries, Mr. Crabtree.
    Again, are we researching old methods of batteries or do we 
have some new methods? I understand that, I think it's Dr. 
Goodenough has got some sodium base. I'm not an expert on any 
of this stuff. Pardon me. You guys know much more about it than 
I do, but what about Dr. Goodenough's research into sodium 
batteries and what's your reaction on that?
    Mr. Crabtree. So that's a great question. JCESR looks 
exclusively beyond lithium ion. Lithium ion is the technology 
we have now that powers cell phones, although not long enough. 
They go out at 4 o'clock in the afternoon when you want to make 
a call.
    Mr. Rohrabacher. Right.
    Mr. Crabtree. And we're looking beyond that. We'd like to 
get a factor of five in performance and higher and a factor of 
five lower in cost. So this is definitely next generation.
    None of the batteries that we're looking at are related to 
lithium ion in their concepts or in their performance. So 
there--many people don't realize this, that beyond lithium ion 
space is very much better and richer than the lithium ion 
space. So lithium ion is one battery technology, been around 
for 25 years nearly. We know it pretty well. It can get 
incrementally better, but just as you were saying, we're 
looking for a transformative change, not an incremental change.
    Mr. Rohrabacher. So let me just point out what we're--that 
was the right answer for nuclear energy, and so thank you very 
much. I'm glad that you're doing what we expected our Hubs to 
be doing.
    Thank you, Mr. Chairman.
    Chairman Weber. The preceding comment was an editorial 
statement, not necessarily reflecting the view of the 
management.
    The Chair now recognizes Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I'm not sure I can 
even add anything more. I was going to ask Dr. Crabtree some 
questions but what more than an endorsement from Dana 
Rohrabacher could there be? But I'll go ahead anyway.
    Battery technology in so many ways we know is critical for 
a real clean, affordable energy future, and certainly, as Mr. 
Rohrabacher said, it is a--what's being done at JCESR is 
certainly what we need to be reaching for. I mean, right now we 
have Tesla, Google and Apple making investments in energy 
storage. Tesla announced its giga factory to be completed next 
year, but we really need to find that breakthrough technology, 
and I think you did a good job.
    My first question was going to be, you know, how the Hub 
works, it helps towards making a breakthrough but I think you 
did a very good job of explaining how the Hubs give you the--
your Hub gives you the opportunity to be very nimble in what 
you're doing, so that was a great example of one of the 
advantages of a Hub.
    I want to ask about the connection to industry because I 
know JCESR has partnered with companies like Dow, Johnson 
Controls, and Applied Materials. Can you explain how these 
partnerships help JCESR to span the whole innovation ecosystem 
and help, you know, look to the future to bring these 
technologies to the market?
    Mr. Crabtree. Yeah. Great question, and indeed, this was 
one of the things that when we made our proposal and launched 
our project that we had in mind. What do you do after you make 
the technology? How do you get it out to the marketplace? So 
JCI, otherwise known as Johnson Controls, happens to be right 
across the state line in Wisconsin from Argonne, so we go up 
there quite often. We spent three full days talking with them 
about what a prototype would look like that would interest them 
in manufacturing it. So this is something that certainly on the 
basic science side almost never happens. We think about the new 
ideas in the basic sciences but we don't think about how to 
bring them to market. On the applied side, it does happen. I 
think JCESR is unique in that it combines both the basic 
science discoveries and the guidance from industry, for 
example, JCI, what would it take to actually be manufactured. 
So they can advise us, for example, don't use any materials in 
a certain class, they're too corrosive. We will know that from 
the very beginning, and at a discovery science stage, we won't 
be pursuing those kinds of materials. So their guidance is 
actually very, very important.
    We have another group that works with us and our 
affiliates, which now number 80 plus. They're start-up firms. 
They're big companies. They're research organizations. And we 
talk with them all the time about their interest. So the ones 
that are startups, we talk about what kind of battery would you 
like to have, and I think it's this connection to the 
marketplace which is one of the unique things about JCESR that 
was missing before. So Toyota will look to its own research and 
development organizations with its own marketing needs in mind 
but they won't go outside their own house. We make it possible 
to go outside individual organizations.
    Mr. Lipinski. So have you seen companies make these 
connections set up locally to have the access? Does that make a 
difference?
    Mr. Crabtree. Oh, it does. So we--there are several battery 
firms, usually small companies, that we work with extensively 
already. We--this does two things. It makes us familiar with 
what their needs are so we can address them better, and it 
makes them familiar with what we can do. So they can address a 
question or a challenge to us that in fact we can respond to.
    So it's spilled out. You know, Argonne has a very extensive 
traditional battery program, lithium ion and other things, 
that's not part of JCESR but we interact with that group as 
well, and when we--through our affiliates and other industrial 
connections, we actually direct them to the right place. If 
it's within JCESR, that's great. If it's not, then we're part 
of that interaction as well.
    Mr. Lipinski. Thank you. I have a very quick question--I 
have little time--for Dr. Atwater. I was--it was probably now 
about 7, eight years ago now, I was at JBEI. So are you working 
completely--something different than they are?
    Dr. Atwater. Yeah, that's good----
    Mr. Lipinski. Because--go ahead.
    Dr. Atwater. Thank you for your question, Mr. Lipinski. So 
we actually have Dr. Jay Keasling, who's the Director of JBEI, 
as a member of our board of governors and so there's close 
coupling and communication between JBEI and JCAP. JBEI takes a 
focus on using alternatives to the traditional biofuels 
feedstocks to generate a new generation of biofuels. As I was 
alluding to in my response to Mr. Grayson, JCAP's focus is on 
using physics and chemistry to achieve the same outcomes as 
natural photosynthesis using artificial photosynthesis with 
greater--such that the generator has greater durability and 
greater efficiency, so that's the primary distinction between 
the two.
    Mr. Lipinski. Thank you. I yield back.
    Chairman Weber. The gentleman yields back.
    The gentleman from Georgia is recognized.
    Mr. Loudermilk. Thank you, Mr. Chairman, and Dr. Gehin, I 
want to circle back over to the light water reactors. I'll take 
a little different approach here, but in Georgia, Plant Vogtle 
is bringing online hopefully very soon two Westinghouse AP-1000 
reactors. We're actually taking a CODEL trip to visit Georgia 
Power here next month to view those.
    In light of what Mr. Rohrabacher said, can you elaborate a 
little bit how CASL and VERA have been useful in licensing, 
ensuring the safety operations of the AP-1000s and should the 
people in Georgia be concerned or is the technology sound? Can 
you elaborate a little bit on these two new reactors coming 
online?
    Dr. Gehin. Yeah, so thank you. It's very exciting to have 
these two reactors coming online in the South. I'm from the 
South so it's great to have that more power there.
    I also point out, Southern Company is part of our industry 
council we've got interactions as well with the folks working 
on that plant as well, Westinghouse, the designer of that 
plant.
    You know, the AP-1000 design has been worked on by 
Westinghouse and evolved and very rigorously reviewed through, 
you know, the NRC licensing process, and so it has got a well-
founded safety basis. It enhances the safety of our current 
fleet, incorporates lessons from Fukushima. So I think these 
are very impressive designs, very safe reactors. So I would not 
hesitate living near a reactor like that.
    As far as CASL, CASL insofar as the timing was not in place 
to impact the licensing. AP-1000 received its design 
certification several years ago, and the construction operating 
license was in place several years ago. But what we are doing 
working with our Westinghouse partner, applying our tools so 
they can actually use these to compare to and confirm their own 
results and help improve their tools for future operations and 
when those reactors start up so they have more information. So 
we expect there will be usefulness from our tools going forward 
but they've not played a direct role in the current licensing 
of those reactors.
    Mr. Loudermilk. With reactors such as the AP-1000, we're 
bringing these on, they're the first new reactors we've brought 
on in how many years?
    Dr. Gehin. So Watts Bar One came online in 1996. Watts Bar 
Two which was started, you know, a couple decades ago will be 
online next year, and so these will be the second reactor 
online in this century in the United States.
    Mr. Loudermilk. Are there obstacles that are in the way of 
expanding nuclear power in the nation that this body can work 
on?
    Dr. Gehin. You know, so one of the areas that we're focused 
on helping, and it's broader than just CASL, is the economics 
of nuclear power. It does provide low-cost economics but in 
competitive markets with variations, it can be rather 
difficult. You know, it's not a--it has a technical aspect that 
we're working on to reduce the operating costs, fuel costs. 
There are other non-technical areas as well that probably need 
to be addressed. This works very well in the South where 
there's a regulated electricity market where you can plan long-
term, so that's why you're seeing these built in the South. I 
think continue to improve the economics, improve the benefits 
that we're getting from it but also looking at some of these 
non-technical issues might be worthwhile.
    Mr. Loudermilk. And one last question back on something 
that Mr. Rohrabacher brought up is other plants that had safety 
concerns. Can you elaborate on what were those, why were those 
plants shut down, and why is Plant Vogtle different?
    Dr. Gehin. Yeah, you know, as far as I know, you know, 
there are some plants that have been shut down in the United 
States. I don't--I wouldn't attribute necessarily that shutdown 
to safety concerns. There have been issues that have resulted 
in economic evaluation to not, you know, address like replace 
stream generators or address steam generator issues. When you 
do the economic analysis, you find out, you know, the business 
decision is not to do that. These could be addressed. They 
could have been brought back but the economic decision was not 
to do so.
    Mr. Loudermilk. Thank you, Mr. Chairman. I yield back.
    Chairman Weber. Thank you. The gentleman from Colorado is 
recognized.
    Mr. Perlmutter. Thanks, Mr. Chair, and I want to thank the 
panelists for being here today. This is fascinating. And I'm 
going to ask more general questions, not as specific as some of 
my colleagues have asked.
    And Dr. King, I'd like to start with you. The purpose of 
these Hubs in my estimation, and as policymakers, we're trying 
to decide are they working, are they not working, are they 
doing the kinds of things that you might expect as an 
experienced scientist and an administrator. Do you see these 
Hubs as beneficial to the future of this country? And it's 
going to be that broad, so go for it.
    Mr. King. Short answer, yes.
    Mr. Perlmutter. Okay. Why?
    Mr. King. Because among many things the Hubs can do is, 
they bring an intense focus on a particular technology or 
scientific challenge, and they put resources in the hands of 
scientific leaders who are able to, as I said in my earlier 
remarks, orchestrate the immense talent and tools that we have 
around the country to actually solve problems in very much 
shorter order in time than has typically been the case. So in 
the case of CMI, we've achieved in two years what typically 
takes 20 in a few well-selected cases. I'm not saying we can 
always do it.
    Mr. Perlmutter. Well, but that's the nature of science too.
    Mr. King. Yes.
    Mr. Perlmutter. I mean, if there weren't some errors to go 
with the trial and errors, you wouldn't be learning much. If 
you knew the answer before you started, then, you know, what's 
the point. So----
    Mr. King. I agree completely.
    Mr. Perlmutter. So I appreciate that.
    So Dr. Crabtree, my question to you is, how do you 
determine what the question is, what the mission is, and how do 
you put the team together?
    Mr. Crabtree. Great questions, and that's exactly what 
JCESR faces. I was mentioning that the beyond lithium ion space 
is really rich, big and complex, and there's really a challenge 
to find out where are the promising directions. So we spent 
about a year and a half doing that. We call that divergent 
research because maybe it's the solution, maybe it's that one, 
maybe it's that one. We've now switched in the last year to 
convergent research where we've picked four directions and 
we're going to implement them and make them work. But I'm sure 
that we're going to leave things on the table. So there will be 
things, even when we're done, assuming we get renewed--let's be 
optimistic--you know, eight years from now, there will still be 
wonderful challenges to be addressed in a similar way.
    Mr. Perlmutter. How did you put your team together? How did 
you determine which industry partners, which academic 
institutions would be part of your Hub?
    Mr. Crabtree. Great question. So the first requirement is 
they have to be good. They have to be the best. If we can get 
the best, we go for the best. If we can't, we go down a notch. 
And we have to be diverse. So we want to be able to look at the 
entire beyond lithium ion space, not just a piece of it, but 
all of it so that we can make a judgment about where are the 
best opportunities. And so we have universities, national labs 
and industry, and that's critical that it be that diverse.
    Mr. Perlmutter. I mean, if I raised my hand and I said gee, 
Doctor, I'd like to be part of your team, how do you vet me? I 
mean, I'm just a lawyer so I wouldn't add much other than I'd 
try to keep you out of trouble.
    Mr. Crabtree. We have lots of lawyers on the team too.
    Mr. Perlmutter. All right. Good.
    Mr. Crabtree. First we would ask, is it covered by somebody 
that we already have or is there somebody better than you--
excuse me for asking that question, but--because we want to go 
for the best, and we don't want to duplicate. Our resources are 
limited so we have to spread them around just as taxpayer 
dollars, you always do, in the best way. So we don't want to 
duplicate and we want to cover everything.
    Mr. Perlmutter. So Dr. Gehin, how long should these Hubs 
remain in operation? Is it in perpetuity or is there a finite 
time period? What do you expect as the administrator of your 
Hub?
    Dr. Gehin. So we're expecting, and we've already done this 
to some degree, of having capabilities that we're deploying to 
industry for their use in the short term. We've done that in 
the first five years. We will continue to do that with our 
renewal.
    With that said, there are--these technologies require 
sustainability. We're looking to that as far as through our 
industry partners and other means of maintaining something that 
we develop so we don't lose it as soon as the Hub ends. We're 
looking towards industry to do that because they're the ones 
who will take this technology forward.
    Means of performing additional research is uncertain at 
this time. I think we'll learn things that will lead to 
additional questions and insights that could be carried forward 
but our current approach is within the ten years have expanded 
simulation capabilities that we can hand off and have those be 
applied in a reactor operation.
    Mr. Perlmutter. Okay. And my time's up. I'll get to you, 
Dr. Atwater, next go-around, okay? I yield back.
    Chairman Weber. Would the gentleman like an additional 
minute?
    Mr. Perlmutter. No, no, go ahead, because I've got to go 
downstairs and ask questions----
    Chairman Weber. Because I was going to take it from the 
gentlelady from Massachusetts.
    The gentlelady from Massachusetts is recognized.
    Ms. Clark. Thank you, Mr. Chairman, and thank you to all 
the panelists.
    I have--I also have a sort of general question for all of 
you, but it's been a theme that's come up. Dr. Crabtree, you 
referred to it. This--we tend to talk about basic and applied 
research in two different buckets and, you know, really silo 
that, and I think it has an impact in not only how we look at 
science and the way the Hubs are working but also in other 
areas in the way we fund things and prioritize. What I'm 
hearing from your testimony--and we had a hearing last month 
where Dr. Whittaker also referenced that this is sort of a 
false dichotomy that we have put together, and I would love to 
hear in your experience in the Hubs how you see this and, you 
know, do you see any potential dangers in really looking at 
these as two very different siloed ways of looking at science 
and research?
    Mr. Crabtree. Great question, and I would hark back to 
maybe 25 years ago, the time of the great industrial labs such 
as Bell Labs and Xerox and IBM where they were integrated and 
indeed the basic science was done right along with the 
application development. We've lost that, and part of that is 
the pressure of Wall Street. Business has to look at the next 6 
months, not the next 20 years. That's hard.
    JCESR is one of the few organizations, brand-new one, that 
bridges that gap and it looks at a very specific problem unlike 
the old industrial labs that looked at many, many problems. 
We're looking at next-generation energy storage only. So we're 
able to focus, we're able to bring--attract the best, and we're 
able to integrate across that spectrum, and I believe that this 
paradigm, this, as we call it, our next paradigm of doing 
business, doing research, may be the most important outcome of 
JCESR, that it may be a model for not only the battery 
community but lots of other critical challenges where you 
combine the basic and the applied and actually the transition 
to market. So I'm actually excited about that, and I feel that 
we're learning now how to do it. It can be done much better 
than we are now doing. I'm sure of that, and if we can develop 
this model, we'll be way ahead of the game.
    Ms. Clark. And one of my concerns is that as we look at 
innovation as a pipeline, if we don't start using the model 
that you are using, you know, where are we going to be as we 
pull back? And I don't know if any of the other of you have 
concerns or want to comment on that. Dr. Atwater?
    Dr. Atwater. Yeah, let me just respond to your comment, and 
thanks very much for your insightful question. So JCAP I would 
say has--if you think about spanning the spectrum from 
fundamental research to deployment and development and scale-up 
sort of furthest upstream and has activities that start on the 
basic research but do in fact span all the way through applied 
research, and we provide the insights that create the 
deployment decisions that have yet to be made as we operate in 
an environment where there is no existing industry.
    But I did want to say that the progress that we've made in 
defining just the basic question of what does a solar fuel 
generator look like. We have a now well-defined model concept 
of what a generator is. It has a cathode and an anode, very 
much like a fuel cell or a battery. It has an electrolyte. It 
has various components that five years ago before an integrated 
team of scientists and engineers came together from across the 
applied and basic research spectrum really didn't exist, and 
it's that collective synthesis of ideas and then execution of 
potential prototypes that led to the concepts of the solar 
fuels generator. So while we don't address through applied 
research and development yet an existing industry, the 
acceleration of progress that we've made actually depended on 
the interaction with applied researchers as well.
    Ms. Clark. Great. Dr. King?
    Mr. King. Yeah, I think the old model is fading. We 
certainly work with a lot of researchers who have spent their 
career working in fundamental research and publish a paper and 
worry not about how it will be commercialized. We started the 
process where every time we take on a fundamental research 
topic, we have industrial potential users come in and talk with 
the researchers about it. But first we were desperately worried 
that this would not work. What we have found is two things. One 
is that the academic and national lab researchers actually 
enjoy it very much indeed. They come out of the room saying why 
didn't we do this 20 years ago, and the research has 
accelerated considerably. Case in point: We are trying to 
develop new red and green emitting compounds, used very 
fundamental physics and computer models in a materials genome 
type of campaign, came up with a dozen different compounds that 
could emit green light and presented those instead of just 
publishing those and then going on to work on producing all 12, 
testing them, refining them, et cetera. We went to our industry 
partner, and our industry partner looked at the 12 compounds 
and said only three of those would ever be considered in our 
company, and they gave different reasons for rejecting the 
other nine. When you think that testing 12 pounds is typically 
a 20-year campaign, we have just saved 15 years of research. So 
getting constant feedback from industry is enriching, 
enlivening, and it's inspiring to the researchers but it's also 
a huge accelerator for the research itself.
    Ms. Clark. Great. Thank you.
    Chairman Weber. The gentlelady yields back. Ranking Member 
Grayson would like to ask at least one more question, so we're 
going to give him time to do that.
    Mr. Grayson. Thank you, Mr. Chairman.
    Dr. Gehin, we have something like 300-plus light water 
reactors in the world. They're very expensive, something like 
half a trillion dollars in replacement value for those 
reactors. In the United States at least, energy production 
facilities are privately owned. I have to wonder, as much as 
I'd like to see the advancement of human knowledge in general, 
why is the industry not trying to add 20 years of life to a 
half-a-trillion-dollar asset? Why does this fall upon the 
taxpayers to do this?
    Dr. Gehin. You know, so the--so that's a very good 
question. So I think industry is very interested in this. I 
think where the value comes in with the government-sponsored 
research is enabling this through the tools that we've already 
invested in advanced computing, the leadership-class computing 
capability that we have, the fundamental science, speaking to 
Ms. Clark's question, taking some of the basic technology we 
have and improving that national investment into our reactor 
systems. So I think it adds value to things that they're 
already motivated and doing that they wouldn't otherwise do or 
have access to.
    Mr. Grayson. Are they doing it? Are there private research 
facilities that actually are trying to do what you're trying to 
do and making any progress?
    Dr. Gehin. Not at the scale that we're doing it with the 
science that we're using.
    Mr. Grayson. Is the industry willing to come together and 
try to fund those facilities since it's for their benefit?
    Dr. Gehin. Well, they already are, so one thing that's 
important to understand about the Hub is, or at least Hub, is 
that the industry partners cost share. So they're already 
making investments into the Hub through cost sharing and data 
that we could otherwise have access to.
    Mr. Grayson. I yield back. Thank you.
    Chairman Weber. Okay. I want to thank the witnesses for 
their valuable testimony and the Members for their questions. 
The record will remain open for two weeks for additional 
comments and written questions from the members.
    This hearing is adjourned.
    [Whereupon, at 11:57 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              



                   Answers to Post-Hearing Questions
Responses by Dr. Alex King


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record



             Statement submitted by full Committee Chairman
                             Lamar S. Smith

    Today, the Subcommittee on Energy will examine the 
Department of Energy's (DOE) Energy Innovation Hubs and provide 
important oversight for the Department's approach to 
collaborative research and development.
    DOE Energy Innovation Hubs encourage cooperation across 
basic science, applied energy, and engineering research and 
development programs. The hubs represent a new model for 
integrating basic research and development with applied 
research to create new technologies.
    Through the hubs, DOE brings together teams of researchers 
from the national labs, academia, and industry to solve 
specific energy challenges.
    Currently, the Department operates four hubs--two with a 
focus on applied energy challenges and two using basic research 
to advance technology development.
    The Department first established the innovation hub model 
within its Office of Nuclear Energy in 2010 with the 
establishment of the Consortium for Advanced Simulation of 
Light Water Reactors, or CASL [CASTLE]. CASL's diverse team of 
experts in reactor physics and materials sciences use super 
computers to model and simulate nuclear reactors.
    This work will help make reactors safer, improve their 
performance, and increase their operational lifetime, which is 
critical to sustainable zero-emission nuclear energy in our 
country.
    Funded through the Office of Energy Efficiency and 
Renewable Energy, the Critical Materials Institute was 
established in 2011 to address domestic shortages of rare earth 
metals and other materials critical for American energy 
security.
    Led by the Ames National Lab, a leading center for 
materials science and technology, researchers work to solve 
critical materials challenges. These include the development of 
new material sources, the increase in efficiency in 
manufacturing, and better methods to recycle and reuse 
materials.
    The Office of Science sponsors two hubs that focus on basic 
research directed at how energy is produced from sunlight and 
ways to advance battery storage.
    The Joint Center for Artificial Photosynthesis, led by the 
California Institute of Technology, conducts basic research 
with the goal of designing efficient energy conversion 
technology that can generate fuels directly from sunlight, 
water, and carbon dioxide. This research presents the 
opportunity to recreate the energy potential of natural 
photosynthesis.
    The research and development conducted at the Joint Center 
for Energy Storage Research hub, commonly known as JCESR [Jay-
Caesar] and led by Argonne National Lab, develops new battery 
storage technology. Researchers at JCESR study how different 
materials perform at the atomic and molecular level inside a 
battery.
    By examining materials, these researchers are able to 
develop batteries that have more capacity, power, and a longer-
life span.This energy storage research could have 
groundbreaking impacts on not just the solar industry, but also 
on all forms of energy and on the reliability of our electric 
grid.
    As DOE pursues new ways to conduct research and 
development, benchmarks to measure progress and the responsible 
use of American taxpayer dollars must be a top priority.
    With a price tag of approximately $90 million per year for 
the existing DOE hubs, Congress should conduct appropriate 
oversight to ensure that limited research dollars are well-
spent.
    I thank our witnesses today for testifying on their 
important research. And I look forward to a productive 
discussion on the research goals of the four DOE hubs.
    I also want to thank the ranking member of this 
subcommittee, Rep. Grayson, for working with me to include 
targeted authorization language for the hubs in the America 
COMPETES Reauthorization Act of 2015, which passed the House 
last month.
    The Department of Energy should prioritize the ongoing 
cooperation between the national labs and academia in order to 
solve basic scientific challenges. It should also partner with 
American entrepreneurs to solve energy challenges through new 
technologies.
    Leveraging limited resources through partnerships will keep 
America at the forefront of cutting-edge science.
          Statement submitted by full Committee Ranking Member
                         Eddie Bernice Johnson

    Thank you, Chairman Weber for holding this hearing, and 
thank you to the witnesses for being here today.
    First established in 2010, the Energy Innovation Hubs are 
modeled on legendary research institutions like Bell 
Laboratories, which unfortunately no longer exist to any great 
extent in the private sector due to an increased emphasis on 
shorter-term returns. Each of these large multiinvestigator, 
multi-disciplinary Hubs is focused on addressing major 
challenges to advancing new energy technologies. In short, 
these centers of excellence are tackling a variety of areas 
that may well be vital to our clean energy future.
    They include: dramatically reducing the costs for new 
energy storage technologies; advanced computer modeling to 
improve the safety and efficiency of nuclear reactors; 
addressing our limited supply of critical materials that are 
essential to a wide range of clean energy technologies; and 
learning from the world of plant biology so that we can find 
new, far more efficient ways to create a usable fuel from three 
simple ingredients--sunlight, water, and carbon dioxide.
    I believe it is long past time for Congress to authorize 
and provide legislative guidance for the Hubs model--which is 
why I included language to do this as part of the America 
Competes Reauthorization Act of 2014, and again in 2015, both 
of which were co-sponsored by every Democratic Member of the 
Committee. I particularly appreciate Ranking Member Grayson's 
good work in introducing and advancing a bill to finally 
authorize the Hubs this year.
    I want to thank all of you again for being here today. Your 
work in these key technology areas is a clear example of why we 
need to not just sustain, but significantly increase federal 
investments in research across the board, and not just in 
research areas that have partisan support.
    If the past is any guide, these investments in fundamental 
and applied research, including energy efficiency, renewable 
energy, and yes, even social and behavioral sciences, will have 
a major impact on both our nation's economic competitiveness 
and our quality of life.
    With that, I yield back the balance of my time.

                                 [all]
                                 
                                 
                                 
</pre></body></html>
